No.

IN THE
SUPREME COURT OF THE UNITED STATES
ERIC MIGUEL DOWDY - PETITIONER
VS.

FREDEANE ARTIS, WARDEN - RESPONDENT

PROOF OF SERVICE

I, Eric Miguel Dowdy, do swear or declare that on this day, July I % , 2021, as required by
Supreme Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third party commercial carrier for
delivery within 3 calendar days.
The name and addresses of those served are as follows:
Michigan Attorney General
P.O. Box 30212
Lansing, MI 48909
I declare under the penalty of perjury that the foregoing is true and correct.

Received

Executed on July / ^ , 2021

jul
Eric Miguel Dowdy, 139170

2 o 2021

